HHS/OIG, Audit - "Review of Administrative and Clerical Costs at Brandeis University for Fiscal Years 2004 and 2005," (A-01-06-01502)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Administrative and Clerical Costs at Brandeis University for Fiscal Years
2004 and 2005," (A-01-06-01502)
September 6, 2007
Complete Text of Report is available in PDF format (325 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit
was to determine whether Brandeis University (the University) claimed clerical
and administrative costs and other direct costs under the terms and conditions
of Department of Health & Human Services grant and contract awards and
applicable Federal regulations during our audit period of July 1, 2003, through
June 31, 2005.  The University claimed administrative salaries and wages in
accordance with Federal and University requirements.  However, the University
misclassified a total of $31,303 to National Institutes of Health (NIH) grants
for books, subscriptions, and public relation costs that should have been
included in its facilities and administrative (F&A) costs.
As a result, the University could have overcharged NIH grants $31,303.  We
recommended that the University update its procedures to include books,
subscriptions, and other supplies as costs claimed under F&A costs unless
adequately justified, budgeted, and approved by NIH as a direct grant cost and
work with NIH to resolve the $31,303 in misclassified costs.  The University
generally agreed with our recommendations.